  DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


            Review of TSA Non-Screener
              Administrative Positions




                                         Office of Inspector General
                 Office of Inspections

OIG-06-65                                 September 2006
                                                                       Office of Inspector General
                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      September 26, 2006


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, effectiveness, and efficiency within the department.

This report evaluates the TSA non-screening administrative staffing issue. It is based on interviews
with employees and officials of relevant agencies and institutions, direct observations, quantitative
analysis, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents

Executive Summary .......................................................................................................................1

Background .......................................................................................................................................3

Results of Review ............................................................................................................................4
    TSA Needs to Conduct a Workforce Analysis..................................................................................4

    Relative Comparison Revealed Under and Overstaffed Airports .....................................................5

    Hub-Spoke Realignment and Reallocation Plan Streamlines Staffing Levels................................10

    Screeners Perform a Substantial Amount of Administrative Work ................................................15

    Screening Managers Earn Less Than $100,000 Annually ..............................................................17

    FSD Administrative Staff Regularly Perform Other Duties As Assigned ......................................18

Recommendations .........................................................................................................................19

Management Comments and OIG Evaluation ...................................................................20


Appendices
     Appendix A:            Purpose, Scope, and Methodology .......................................................................23
     Appendix B:            Management Response to Draft Report ...............................................................25
     Appendix C:            Chairman Mica’s Letter to TSA ...........................................................................29
     Appendix D:            TSA’s Response to Chairman Mica’s Letter........................................................32
     Appendix E:            Pay Band, Number, and Average Salary of FSD Administrative Staff ...............34
     Appendix F:            Map of the Western Area .....................................................................................35
     Appendix G:            Position Descriptions............................................................................................36
     Appendix H:            Major Contributors to This Report.......................................................................44
     Appendix I:            Report Distribution...............................................................................................45




                                         Review of TSA Non-Screener Administrative Positions
Table of Contents




Abbreviations
  AAAE          American Association of Airport Executives
  AFSD          Assistant Federal Security Director
  DFSD          Deputy Federal Security Director
  DHS           Department of Homeland Security
  FSD           Federal Security Director
  FTE           Full Time Equivalent
  NFC           National Finance Center
  OIG           Office of Inspector General
  PP5           Pilot Program
  SSP           Screening Partnership Program
  TSA           Transportation Security Administration




                     Review of TSA Non-Screener Administrative Positions
OIG
Department of Homeland Security
Office of Inspector General


Executive Summary

                On July 6, 2005, Congressman John Mica, Chairman, House Aviation
                Subcommittee wrote the Secretary of the Department of Homeland Security
                and the Chairmen of the House and Senate Appropriations Subcommittees on
                Homeland Security, to request immediate and appropriate legislative or
                administrative action to reduce or place a cap on Transportation Security
                Administration (TSA) non-screener administrative staffing positions at
                airports around the country (see Appendix C). Federal Security Directors
                (FSD) have significant responsibilities as the highest-ranking federal officials
                in charge of day-to-day direction of airport security staff and operations.
                Their administrative staff of 1,850 employees supports a passenger and
                baggage-screening workforce of 47,037 screeners. The Chairman raised
                concerns that the administrative staff are top-heavy and underutilized at
                several airports, and include overpaid supervisory screeners. The Chairman
                also requested that the Office of Inspector General (OIG) review these issues.

                We could not answer completely the Chairman’s questions. The initial
                staffing plan adopted by TSA resulted in significant variations in staffing
                among airports. Some airports were understaffed while others were
                overstaffed. However, there are classification issues that preclude a firm
                conclusion. TSA excludes from its count of administrative staff those workers
                in non-screener positions with responsibilities for other FSD functions, such
                as law enforcement, cargo inspection, legal counsel, and regulatory
                compliance. In addition, TSA often enlists screeners to perform
                administrative duties; some are tied to screener administration, but some are
                used to fulfill TSA or FSD administrative needs. Available timekeeping
                records do not permit a separation of the costs or associated FTEs into the two
                usages, so it is not possible to determine the full extent of FSD administrative
                activity. We were told that, to a lesser degree, FSD administrative staff also
                was employed upon occasion to fill screener administrative needs. Thus, it is
                not possible to determine how much administrative workforce TSA now uses,
                and thereby to assess whether TSA uses too much or needs more. What was
                clearer was that TSA’s initial staffing actions lacked coherency and resulted in
                some cases in significant disparities in staffing at airports.




                           Review of TSA Non-Screener Administrative Positions
                                                Page 1
OIG
Department of Homeland Security
Office of Inspector General


                In July 2005, TSA completed a Hub-Spoke Realignment and Reallocation
                Plan. The plan will alter the operational relationships of FSD offices at
                various airports, creating principal (Hub) and dependent (Spoke) airports, and
                provide better symmetry among FSD staffing patterns when analyzed
                according to category of airport, number of screeners, and number of
                administrative positions. TSA expects to complete implementing the plan by
                September 30, 2006 but has not received the funding for the additional 139
                positions they say they require.

                Staffing under the old allocations should be realigned and the new plan
                appears to provide better solutions. However, we do not have a confident
                basis upon which to recommend that TSA should reduce, cap, or increase its
                FSD administrative staff without better data. Even TSA’s proposed plan does
                not answer the question of whether it needs more or could get by with fewer
                administrative positions. It is only a more uniform allocation of the number of
                positions stated. TSA has never determined the precise number of FSD
                administrative positions it needs. Consequently, our recommendations first
                propose that TSA conduct and complete such an analysis. In the meantime,
                we would not recommend a cap or limit on TSA’s administrative positions.
                This opinion is based on interviews we conducted in which TSA employees in
                the field affirmed the existence of administrative shortages and in which we
                learned of the recurring diversion of screeners for administrative work. TSA
                may also reap economies as administrative functions are consolidated in its
                new Hub-Spoke arrangement and as a result of its proposed transition to a
                reportedly more efficient payroll system. So, we are not confident that the
                data or available information can support a specific FTE limitation.

                We are recommending that, before TSA takes any further action regarding
                FSD non-screener staffing levels, the Assistant Secretary, TSA: (1) conduct a
                workforce analysis of FSD non-screener staff and develop a staffing model to
                identify the number of employees actually needed at airports; (2) review
                proposed adjustments to FSD staffing levels and ratios of administrative to
                screener personnel; (3) continue to study technologies or systems that will
                automate data entry functions at airports; and (4) reclassify administrative
                positions using more inclusive position titles to incorporate more of the
                functions employees perform and facilitate the hiring of administrative
                personnel.



                          Review of TSA Non-Screener Administrative Positions
                                               Page 2
    Background
                          Following the September 11, 2001, terrorist attacks in the United States, TSA
                          was established after Congress enacted the Aviation and Transportation
                          Security Act (P. L. 107-71, § 101, 115 Stat. 597 (2001)). Part of TSA’s
                          mission is to protect the nation’s air transportation system through passenger
                          and baggage screening. With a workforce of 47,037 screeners, TSA screens
                          more than 250 million pieces of checked baggage and carry-on passenger
                          baggage annually at the nation’s 429 commercial airports. FSDs oversee TSA
                          activities at the airports. There are 1,850 FSD employees nationwide.1 They
                          perform a myriad of functions, most in direct support of screening operations,
                          including payroll, budget, personnel, customer service, screening training,
                          scheduling, and clerical. FSD staff also support TSA’s 1,000 regulatory
                          inspectors and 300 law enforcement personnel who work in airports around
                          the country. FSD administrative staffs vary in their composition. In addition
                          to the FSD, they include positions such as Deputy FSD (DFSD),
                          Administrative Officer, Human Resources Specialist, Financial Specialist,
                          Stakeholder Liaison, Customer Service Manager, and Secretary (see Appendix
                          E).

                          In November 2002, TSA allocated the number and type of FSD administrative
                          positions according to airport categorization. TSA categorizes airports based
                          on size, geographical location, geo-political circumstances, and enplanements
                          (the boarding of a commercial aircraft by a passenger).2 Generally, the larger
                          airports were authorized to hire more staff. For example, Category X and
                          Large Category I airports were authorized to have 16 FSD administrative staff
                          positions, while Medium Category II and Large Category III hubs were
                          authorized to fill 10 positions.

                          In July 2005, TSA began moving to a new realigned hub and spoke statewide
                          system and the process was completed in November 2005. The purpose of the
                          hub and spoke system is to make more efficient and economic use of
                          administrative and screening resources. Under the system, hub airports will

1
  References to “FSD staff” relate to the number of authorized support positions assigned to the FSD. It does not include
the number of screeners, regulatory inspectors, or law enforcement personnel assigned to the airport, or to screeners who
are assigned to the FSD.
2
  Examples of different categories of airports are as follows: Los Angeles and John F. Kennedy are Category X airports;
New Orleans and Pittsburgh are Category I airports; Lubbock and Savannah are Category II airports; Duluth and Erie are
Category III airports; and Tupelo and Morgantown are Category IV airports.


                                       Review of TSA Non-Screener Administrative Positions
                                                            Page 3
                          provide the administrative support for multiple smaller airport spokes. TSA is
                          planning to realign several hundred FSD administrative positions such that
                          large category airports will gain positions while smaller airports will forfeit
                          some positions. However, due to a lack of funding for fiscal year 2006 and a
                          hiring freeze TSA instituted on September 12, 2005, the transfer or hiring of
                          personnel under the realignment plan was put on hold.3

                          Congress has funded fewer positions each of the last four years than TSA
                          requested (see Table 1).

                          Table 1: Budget Request and Funding for FSD Administrative Positions

                                                   2003              2004                2005              2006
                             Requested             2,632         Not available*          2,500             2,500
                             Funded**              2,133             1,943               1,850             1,801
                          * TSA was unable to provide us with the data at the time of writing this report.
                          ** Chief Financial Office reported funded positions were 1,898 for 2004 and 1,892 for 2005.



    Results of Review

        TSA Needs to Conduct a Workforce Analysis
                          After its creation in 2002, TSA responded quickly to establish its security
                          operations at airports. It hired and deployed FSDs and administrative support
                          to oversee these operations. Lacking any useful historical or analogous data,
                          TSA never precisely determined how many administrative positions were
                          needed to support the screener staff. Using a subjective, consensus-driven
                          approach, TSA estimated how many resources it needed and allocated a
                          certain number of administrative positions to each FSD, based on their
                          respective airport category. In November 2002, TSA developed its first
                          staffing chart for airports, which called for 2,632 positions (see Table 2).




3
  The Office of Security Operations developed a formal waiver process to allow movement of people within an airport
system or in emergency cases (for example, after Hurricane Katrina struck the south coast, some personnel were allowed
to move out of New Orleans).

                                       Review of TSA Non-Screener Administrative Positions
                                                            Page 4
                                    Table 2: Original FSD Staff Positions By Airport Category

                                                              Medium      Medium     Medium
                                     Cat X                     Cat I &    Cat II &   Cat III &
                                       &     TSES     Large     Large      Large      Large      Cat II &                Cat III
                                     Large   Large    Cat I   Cat II, &    Cat III    Cat IV        III      Cat III &    & IV
                                     Cat I   Cat I*    & II   III Hubs     Hubs       Hubs       (250K+)    IV (50K+)    (<50K)    Total
    Number of Airports                28      24       34         19        46           7          26          80         183     447
    Planned Positions per Airport      23     21       18         15        10           3           1           1          0
    Total Positions                   644     504      612       285        460         21          26          80          0      2,632
    Authorized per Category            16     15       15         12        10           3           1           1          0
    Total Authorized                  448     360      510       228        460         21          26          80          0      2,133
          * Transportation Security Executive Service (TSES) Large Category I airports are headed by FSDs who hold
             Senior Executive Service positions.



                                    Each FSD was entitled to hire according to his or her concept of the airport’s
                                    needs by choosing positions from a list provided by TSA. These materials did
                                    not set requirements for essential functions or recommended ratios of
                                    administrative support to screeners. TSA did not develop or use any formula-
                                    based model for its staffing decisions, and this resulted in many over or
                                    understaffed airports.

                                    In order for the administrative employees to effectively support the screener
                                    staff, TSA needs to know the number of administrative employees as well as
                                    the type of positions needed. It needs to conduct a workload analysis that
                                    accurately determines the number of support staff needed. This analysis
                                    should lead to a staffing model similar to the Screener Allocation Model, and
                                    reflect screener staffing allocations, the hub and spoke structure, and other
                                    relevant factors.4 It should provide new information to help determine
                                    whether to reduce, cap, or increase administrative staff levels.


             Relative Comparison Revealed Under and Overstaffed Airports
                                    We reviewed how the original staffing chart translated into actual staffing
                                    levels at airports. To establish a reasonable basis for comparison, we
                                    identified current FSD staffing totals and combined the data according to
                                    TSA’s new hub and spoke structure. Specifically, we tallied FSD staff in each
                                    hub airport, and its assigned spokes, and compared those totals to other hub

4
  The Screener Allocation Model incorporates various complex assumptions about baggage staffing, checkpoint staffing,
passenger arrival distributions, and baggage distributions to determine optimal levels of passenger and baggage screeners
at airports.

                                                Review of TSA Non-Screener Administrative Positions
                                                                     Page 5
                                 and spoke areas, relative to the number of screeners and screening managers
                                 being supported. The data suggests that TSA’s original staffing chart led to
                                 inconsistent deployment of personnel. Staffing was not uniform, especially
                                 for airports within the same category. Several hub and spoke areas appeared
                                 to be over or understaffed (see Graph 1).

                                 Graph 1: Hub and Spoke Areas Plotted by FSD and Screener Staff
                      51
                      48
                      45
                      42
                      39
                      36
                      33                                                                                          Category
                      30                                                                                          X
          FSD Staff




                                                                                                                  Category
                      27                                                                                          I
                                                                                                                  Category
                      24
                                                                                                                  II
                      21                                                                                          Category
                                                                                                                  III
                      18                                                                                          Category
                      15                                                                                          IV

                      12
                       9
                       6
                       3
                       0
                           0   150   300   450   600   750   900   1050 1200 1350 1500 1650 1800 1950 2100

                                                               Screener Staff



                                 It is important to point out that TSA does not count all airport positions as part
                                 of the FSD administrative staff. Although the Assistant Federal Security
                                 Director (AFSD)-Law Enforcement and the AFSD-Regulatory and
                                 Inspections are stationed at airports, TSA does not consider them to be part of
                                 the FSD administrative staff because their salaries are funded from separate
                                 budgets and not necessarily determined by the number of screener personnel.5
                                 Attorneys are stationed at large airports, but they report to their supervisors at
                                 TSA headquarters. Additionally, TSA considers screening managers that
                                 supervise screeners to be part of the screener workforce. We agree that

5
 The six different budget groups are: 1) FSD and Staff, 2) Screener, 3) Screening Manager, 4) Law Enforcement,
5) Regulatory Inspectors, and 6) Air Cargo.

                                             Review of TSA Non-Screener Administrative Positions
                                                                  Page 6
screening managers are not administrative positions. We counted screener
managers as part of the screening staff because they directly supervise
screeners (and lead screeners), and their duties are more similar to screeners.
Their offices are collocated at the airports, and they are supported by the FSD
administrative staff as screeners are.

Using the number of screeners FSD staff support for comparison, several
small and large hub and spoke areas illustrated the problem with the original
staffing model. For example:

   •   Hawaii’s airport structure is made up of its hub, Honolulu, and six
       spoke airports. Honolulu has a large FSD administrative staff
       compared to other airports that have a similar sized screener staff and
       spoke structure. Hawaii has a total of 51 FSD administrative staff
       members for 1,160 screeners, a ratio of one staff person to every 23
       screeners. Comparatively, Newark International Airport, a Category X
       airport with no hubs, appears understaffed. Including the FSD, there
       are 13 administrative staff to support 1,302 screeners, a ratio of one
       FSD staff person to every 100 screeners.

   •   El Paso International Airport is a Category I airport with no spokes.
       There are a total of 13 FSD staff members for 129 screeners. With a
       ratio of 1:10, El Paso appears overstaffed compared to John F.
       Kennedy International Airport (JFK), which appears equally
       understaffed. JFK is a Category X airport with no spokes. It has 16
       FSD staff members to 1,665 screeners, a ratio of 1:104.

   •   Jacksonville International Airport is a Category I airport with three
       smaller spoke airports. There are 31 FSD staff members and 261
       screeners, a very low ratio of 1:8. On the other hand, Memphis
       International Airport, also a Category I airport, has one spoke but a
       total of 11 FSD staff members for 279 screeners, a ratio of 1:25.

   •   O’Hare International Airport, a category X airport with one spoke, has
       41 FSD staff members and 1,621 screeners, or one staff person for
       every 39 screeners. On the contrary, Miami International Airport, a
       Category X airport with no spokes, has 1,722 screeners--101 more
       than O’Hare--but 24 fewer administrative staff. With 17
       administrative staff, it has one staff person for every 101 screeners.




           Review of TSA Non-Screener Administrative Positions
                                Page 7
                           We analyzed staffing data for hundreds of airports and there is no clear
                           benchmark regarding staff size. For example, not taking into account any of
                           their spokes, Category X airports currently average one administrative staff
                           person for every 49 screeners. Category I airports average one staff person for
                           every 19 screeners. Therefore, depending on the point of view, the airports
                           above could be under or overstaffed (ratios are discussed further on page 10).
                           More important, these examples illustrate the need for TSA to study in greater
                           detail minimum staffing requirements of various hub and spoke areas and
                           determine their optimum staff size. Category II airports may represent ideal
                           case studies because their administrative staffs tend to be a larger percentage
                           of generally smaller screener staffs and could represent a truer picture of the
                           minimum number of staff required to sustain operations.

                           Comparison of Chairman and TSA’s data for select airports

                           In the preceding section, we identified some examples of the nation’s airports
                           that were over and understaffed, based on our analysis of the FSD staff to
                           screeners ratio number. In this section, we evaluated the overstaffing issue in
                           all eight airports sampled in Chairman Mica’s July 6, 2005, letter as well as
                           TSA’s response to his concerns. In each airport, actual FSD staff levels were
                           lower than those levels identified by the Chairman (see Table 3). The
                           Chairman included certain positions that TSA does not count, such as
                           Assistant FSDs (AFSD) for Law Enforcement and Regulations & Inspections
                           and Screener Managers, in the composition of the FSD administrative staff.6




6
 We discussed the Chairman’s concerns with the American Association of Airport Executives and several airport
directors. Opinions about over-staffed administrative positions were in the minority, and may have been due to
misconceptions about the 1) composition, duties and responsibilities of the FSD administrative staff and 2) the chain of
command of airport’s federal personnel outside the FSD administrative staff.

                                        Review of TSA Non-Screener Administrative Positions
                                                             Page 8
                           Table 3: Comparison of Chairman and TSA’s Data For Select Airports

                                                          Number of FSD           Number       Screeners per     Hub or No
                                               Airport     Administrative           of         Administrative     Spoke
                                              Category         Position          Screeners       Position         Airport
                                                          Mica        TSA
                         Rapid City, SD         III         9           6             37             6             Hub
                        Manchester, NH           I         25          14            168             12            Hub
                         Rochester, NY*          II        21           8            143             17            Hub
                         Columbus, OH            I         29          19            218            11             Hub
                          Orlando, FL            X         24          15            958            63           No spoke
                       San Francisco, CA*        X         44           9           1,099           122          No spoke
                          Denver, CO             X         36          19            724             38            Hub
                        Los Angeles, CA          X        105          27           2,179           80           No spoke
                     * Rochester and San Francisco are PP5 airports.7

                           In its January 25, 2006, response to the Chairman, TSA addressed the
                           differences in two airports, San Francisco (SFO) and Rochester (ROC).8 It
                           described SFO’s administrative staff as follows:

                                  Of those 43 administrative positions, 12 are screening
                                  managers on the floor overseeing screening operations as
                                  required by the Aviation and Transportation Security Act
                                  (ATSA); 13 are aviation inspectors performing regulatory
                                  duties such as cargo, airline, and airport security
                                  inspections; 1 is a law enforcement officer; 5 are rail
                                  inspectors accomplishing inspections and interfacing with
                                  rail systems within the San Francisco area; and the
                                  remaining 12 are management staff positions.

                           TSA’s response did not address whether the agency plans to reduce, cap, or
                           increase FSD staff levels. However, to fully implement TSA’s reallocation
                           plan would require an additional 139 positions nationwide. This is contrary to
                           the Chairman’s request that TSA reduce or place a cap on non-screener
                           administrative positions, but the additional positions, along with the
                           reallocation of current positions, will streamline FSD administrative staffing
                           levels according to airport category and screener staffing levels.




7
  TSA has responsibility for security at five airports that use private or contract screeners. They are: Jackson Hole-WY,
Kansas City-MO, Rochester-NY, San Francisco-CA and Tupelo-MS.
8
  Although Chairman Mica reported that San Francisco had 44 positions, TSA’s response identified 43 current positions.

                                        Review of TSA Non-Screener Administrative Positions
                                                             Page 9
           Hub-Spoke Realignment and Reallocation Plan Streamlines
           Staffing Levels
                            Driven by the realization that many airports were over or understaffed, in the
                            summer of 2004, TSA began to examine how to better allocate non-screener
                            positions. A small working group of nine FSD administrators from the field
                            considered factors affecting administrative staffing levels, which are not based
                            solely on the number of screeners. (TSA also considers the category of the
                            airport, the number of spoke airports, and the number of enplanements among
                            other criteria.) TSA identified those duties that one individual can perform
                            and provided feedback about variables affecting staffing such as, “span of
                            control, hub support to spokes, and core positions.”9 This work culminated in
                            the Hub-Spoke Realignment and Reallocation Plan and in July 2005, TSA
                            began to implement the plan. TSA decided which airports to label hub
                            airports, which ones to label spoke airports, and the connection between hubs
                            and spokes (see example in Appendix F). Hub airports would provide
                            administrative support and services to their smaller spokes. TSA expects to
                            complete the plan to reallocate both non-screener and screener positions by
                            September 30, 2006. TSA officials explained that they are in the process of
                            identifying where individuals are stationed, and their current titles. As we
                            mentioned, the plan calls for an additional 139 positions, but TSA has not
                            received funding for them.

                            The plan should render staffing ratios nationwide more uniform. For
                            example, the average ratio of FSD administrative staff to screeners at a
                            Category II airport is 1:10, suggesting that they have too many administrative
                            personnel. Comparatively, Category X airports, which average 1:49, appear
                            understaffed. Under the plan, screeners will be reallocated from Category III
                            and IV to Category X and I airports, and the average ratios will change
                            accordingly (see Table 4).




9
    As stated in TSA’s Field Leadership Representatives Workgroup Initiatives, November 5, 2004.

                                        Review of TSA Non-Screener Administrative Positions
                                                             Page 10
                                             Table 4: Effects of the Reallocation Plan*

                             Current Ratio of     Proposed Ratio       Current                   Proposed
                              FSD Admin           of FSD Admin          FSD                        FSD
                 Airport         Staff to             Staff to         Admin          Current     Admin      Proposed
                Category       Screeners             Screeners        Positions      Screeners   Positions   Screeners
                   X              1:49                 1:31             514           25,572       815        25,581
                    I              1:19                1:17              722          13,766       780        13,755
                    II             1:10                1:14              435           4,697       319        4,689
                   III             1:12                1:26              148           1,870        70        1,858
                   IV              1:45                1:239              26           1,193        5         1,196
                         *Table 4 depicts actual personnel count, not full time equivalents.

                         If implemented, TSA’s reorganization plan would affect where TSA deploys
                         its resources.10 The plan would adjust staffing levels at most of the airports
                         we identified as over or understaffed, and align staff more consistently within
                         airport categories, by reducing the number of administrative positions in most
                         small category airports and increasing the number of positions in large
                         category airports. The differences between the original staffing chart
                         (Graph 1) and the new plan (Graph 2) are evident.




10
  Although the hub and spoke realignment was completed in November 2005, no movement of personnel is allowed due
to budget cuts.

                                      Review of TSA Non-Screener Administrative Positions
                                                           Page 11
                                    Graph 2: Hub and Spoke Areas Plotted by Proposed FSD and Screener
                                    Staff
                     57

                     54

                     51

                     48

                     45

                     42

                     39
                                                                                                                                 Category
                     36
                                                                                                                                 X
Proposed FSD Staff




                     33                                                                                                          Category
                     30                                                                                                          I
                     27
                                                                                                                                 Category
                                                                                                                                 II
                     24
                                                                                                                                 Category
                     21                                                                                                          III
                     18                                                                                                          Category
                                                                                                                                 IV
                     15

                     12

                      9

                      6

                      3

                      0
                          0   150     300   450     600    750     900   1050   1200   1350   1500   1650   1800   1950   2100

                                                                 Proposed Screening Staff



                                    The hub and spoke plan would affect those airports discussed on pages 7-8 as
                                    follows:

                                       •    Hawaii’s FSD administrative staff will increase from 51 to 55
                                            members for 1,159 proposed screener positions, thus reducing its ratio
                                            from 1:22 to 1:21. Hawaii remains an exception to the positive
                                            changes noted herein. It has the largest FSD staff in the country and
                                            despite geographic considerations, still appears overstaffed.
                                            Comparatively, Newark International Airport’s staff will increase from
                                            13 to 40, thus reducing its ratio from 1:100 to 1:32, and this change
                                            appears necessary.

                                       •    El Paso International Airport will gain one administrative position,
                                            bringing total FSD staff to 14 for 131 screeners, a ratio of 1:9. Like
                                            Newark, John F. Kennedy International (JFK) Airport’s FSD staff will
                                            grow under the new plan. JFK will add 29 positions, bringing its total
                                            to 45 to support 1,666 screeners. This is a ratio of 1:37.

                                                  Review of TSA Non-Screener Administrative Positions
                                                                       Page 12
   •   Although it is a Category I airport, Jacksonville International Airport
       will lose 14 positions, leaving it with 17 administrative positions for
       273 screeners (up from 261), a ratio of 1:16. Memphis International
       Airport, will increase from 11 to 15 FSD staff members for 280
       screeners, causing the ratio to decrease to 1:18, much closer to
       Jacksonville’s staffing level.

   •   Miami International Airport will gain 27 positions, bringing total FSD
       staff to 44 for 1,723 screeners, reducing its ratio from 1:101 to 1:39,
       the same as O’Hare International Airport. O’Hare’s staffing levels
       will remain unchanged (41 FSD staff and 1,631 screeners), a ratio of
       1:39.

As noted, some of the new hub and spoke areas still appear over or
understaffed. TSA hired and deployed too many administrative staff at some
airports and too few at others, and staffing ratios were inconsistent. This
might be due to the presence of privatized screeners, the size of screener staff,
airport category, their geographical location, whether they are hub or spoke
airport, or other unique aspects of each airport. But more important,
implementing the plan does not answer the fundamental question of whether
TSA has the optimal number of administrative staff.

The plan would affect all of the airports the Chairman identified (see Table 5).
It would reduce the number of administrative positions at the Rapid City,
Manchester and Rochester airports, and increase the number of positions at
Columbus, Orlando, San Francisco, and Los Angeles airports.

    Table 5: Proposed FSD Staffing Adjustments in Select Airports

                                 Current FSD       Proposed FSD
                                 Admin Staff        Admin Staff   Change
          Rapid City, SD               6                 2          -4
         Manchester, NH               14                12          -2
          Rochester, NY                8                 4          -4
          Columbus, OH                14                15          +1
           Orlando, FL                15                35         +20
        San Francisco, CA              9                17          +8
           Denver, CO                 19                28          +9
         Los Angeles, CA              27                48         +21




           Review of TSA Non-Screener Administrative Positions
                                Page 13
                          Plan would change FSD staffing levels at most of the SPP airports

                          When TSA assumed responsibility for aviation security in February 2002 and
                          to establish a federal workforce to screen all passengers and baggage by the
                          end of that year, it allowed five airports to contract private sector screeners
                          subject to federal oversight under the private screeners pilot program (PP5s).
                          Under the program, TSA has responsibility for security, but contractor or
                          private screeners perform the screening. TSA permitted one airport from each
                          category to participate in the pilot program. Airports in San Francisco
                          (Category X), Kansas City (Category I), Rochester (Category II), Jackson
                          Hole (Category III) and Tupelo (Category IV) participated in the program. In
                          November 2004, TSA replaced the pilot program with the Screening
                          Partnership Program (SPP), or “Opt-Out,” whereby airport operators were
                          allowed to opt-out of the federal screening program. Sioux Falls joined the
                          SPP, thereby increasing the number of airports using private screening
                          companies to six (see Table 6).

                                               Table 6: Staffing Ratios at SPP Airports

                                                                                                     Ratio of Admin
                                                       Airport      Current FSD       Number of          Staff to
                                                      Category      Admin Staff       Screeners        Screeners
                             San Francisco, CA            X               9             1099              1:122
                              Kansas City, MO              I             12              575              1:47
                               Rochester, NY              II             8               143              1:17
                              Sioux Falls, SD             II             5               37                1:7
                             Jackson Hole, WY            III             1                46              1:46
                                Tupelo, MS               IV              --               8                 --

                          The Chairman raised concerns about the program by noting, “TSA staffing is
                          redundant and duplicative of the qualified screening company personnel at the
                          airports participating in the private screener pilot program (PP5).” At two of
                          the six airports, Rochester and Sioux Falls, the number of FSD staff onsite to
                          oversee contract screeners did appear excessive.11 Their staffing ratios of 1:18
                          and 1:7, respectively, were among the lowest nationwide. TSA plans to
                          reduce the number of positions at Rochester from 8 to 4, which will make its
                          staff level commensurate with other airports its size. At Sioux Falls, TSA
                          plans to add administrative positions because this airport will service six

11
   Under ATSA, all PP5/SPP airports must have FSD oversight. The FSD also requires an administrative staff,
including a secretary. SPP hub airports also serve spoke airports that are federally staffed. Although SFO has no spoke
airports, the FSD has a staff of Training Personnel, Screening Managers and regulatory personnel who depend on
administrative support.

                                       Review of TSA Non-Screener Administrative Positions
                                                            Page 14
                          spokes and a total of 97 screeners. This change would result in one
                          administrative staff for every 16 screeners, a ratio we might otherwise
                          construe as high.12 However, the ratio is consistent with Little Rock, another
                          hub with at least six spokes.

                          We did not take exception to TSA’s planned realignment of FSD staffing in
                          the remaining SPP airports. San Francisco will gain eight positions, reducing
                          its ratio to 1:65. Staffing levels at Kansas City and Tupelo will not change,
                          and Tupelo has no FSD administrative staff.


        Screeners Perform a Substantial Amount of Administrative
        Work
                          Complicating an evaluation of FSD staffing levels is the fact that FSDs
                          regularly assign screeners to perform administrative functions. According to
                          TSA headquarters’ officials and FSDs, the primary reason why screeners
                          perform administrative work is that airports lack sufficient administrative
                          personnel to overcome inefficiencies in recording time and attendance data.
                          The larger screener workforce makes it an attractive labor pool from which to
                          draw when administrative work is required.

                          From pay period 20 of 2005 through pay period 1 of 2006, screeners
                          performed administrative work equal to 1,441 full time equivalent (FTE)
                          positions.13 This equates to 78% of the 1,850-member FSD administrative
                          staff. Screening staff worked overtime to complete administrative tasks. For
                          example, screeners worked 150,019 hours and 158,262 hours of overtime on
                          administrative functions during pay periods 20 and 21 respectively.

                          Screeners’ administrative work involved time and attendance assistance but
                          also included communications, clerical, and budgetary duties. FSDs told us
                          they also rotate their screeners for these assignments in a way that does not
                          affect screening operations. Often, but not always, the detailed screeners are
                          injured and on “light duty” status, i.e., duties that screeners are able to

12
   Geographical dispersion is an important consideration when allocating administrative positions to hubs that service
spokes.
13
   In August 2005, TSA migrated from the Consolidated Uniform Payroll System to the National Finance Center (NFC)
payroll system, thereby enabling it to determine how much of the screener workforce is doing administrative work every
pay period. The NFC payroll system categorizes and tracks the amount of hours screeners are involved in tasks such as:
passenger screening, baggage screening, administrative, training, and maintenance in FTE. TSA officials informed us
that Hurricane Katrina affected the initial transition to the NFC.

                                       Review of TSA Non-Screener Administrative Positions
                                                            Page 15
                          perform while injured. Some of the 1,441 FTEs will always be doing
                          administrative work that directly supports screening operations, i.e., not the
                          office work that is done by the FSD administrative staff.14 Although FSDs we
                          interviewed consistently attested to screeners performing administrative work,
                          based on the data provided to us by TSA, we were unable to differentiate
                          between the amount of time screeners spent on FSD’s office-based work and
                          screening-related administrative duties.

                          According to the National Finance Center (NFC) payroll system, the percent
                          of screeners doing administrative work has gradually increased since pay
                          period 20 (see Graph 3).

                                          Graph 3: Percent of Screeners Doing Administrative Work

                                                    3.6

                                                    3.6
                                    In Percentage




                                                    3.5

                                                    3.5

                                                    3.4

                                                    3.4

                                                    3.3
                                                           20      21       22      23      24       25   26   PP1-06
                                                                                    Pay Period




                          The extent to which the migration to the NFC payroll system and the new
                          staffing plan will affect the number of screeners and amount of time they
                          spend on administrative tasks is unclear. Many FSDs stated that, if
                          implemented, the staffing plan would eliminate the need for most, if not all,
                          screeners to enter time and attendance data. Headquarters officials asserted
                          that the new payroll system would slightly improve data entry, and permit a
                          reduction in the use of screeners or FSD administrative staff, but did not
                          quantify that reduction. TSA expects that the new hub and spoke system will
                          shift the burden of administrative work more to the hub airports that have the
                          larger administrative staffs and more screeners to support themselves and their
                          spoke airports. However, not all of the new hub airports are gaining

14
  Screeners also participate in training to maintain their recertification and maintenance. They are required to pass
screening recertification tests on an annual basis. Combined, their time worked on training and maintenance averaged
1,122 FTEs and 74 FTEs respectively over the same time period.

                                                    Review of TSA Non-Screener Administrative Positions
                                                                         Page 16
                          administrative staff. We concur that automation of the new payroll system
                          warrants further study.


        Screening Managers Earn Less Than $100,000 Annually
                          In his letter, the Chairman stated, “Many TSA supervisory screening positions
                          have questionable job descriptions that pay over $100,000 annually.” In total,
                          240 employees (13%) out of the 1,850 total FSD administrative staff earn over
                          $100,000.15 With respect to supervisory screening positions, there are 18
                          AFSDs for Screening who can earn more than $100,000.16 The remaining 222
                          positions who earn more than $100,000 consist of 106 FSDs, 38 DFSDs, 31
                          AFSDs, 17 AFSDs for Operations, 9 Administrative Officers, 5 Customer
                          Service Managers, 4 Stakeholder Managers, 4 Training Instructors, 4 Special
                          Advisors, 2 Program Analysts, 2 Executive Assistants, 1 Training Coordinator
                          and 1 Training Specialist. AFSDs for Screening, who are part of the FSD
                          administrative staff, supervise Screening Managers, Screening Supervisors,
                          and Lead Screeners.

                                 Table 7: Salary and Hierarchical Structure of Screening
                                 Operations Personnel

                                            Position                Pay Band          Min. & Max. Salary*
                                 AFSD-Screening                       I /J/K           $54,100 – $122,300
                                 Screening Manager (Technical)          H/I              44,400 – 83,900
                                 Screener Supervisor                     G               35,400 – 56,400
                                 Lead Screener                           F               31,100 – 40,700
                                 Screener                                D               23,600 – 35,400
                                  * Excludes locality pay.

                          Screening Managers, Screening Supervisors, and Lead Screeners perform
                          varying degrees of screener staff oversight. All of these positions earn less
                          than $100,000 annually (see Table 7). The average salary of 1,081 Screening
                          Managers is $52,005. Of these positions, 422 Screening Managers (40%)
                          have annual pay that exceeds the average salary. The highest paid Screening
                          Manager, who works at a Category X airport, makes $90,791 annually; the
                          lowest paid Screening Manager earns a gross salary of $44,000 a year. The

15
   Forty-nine law enforcement and regulatory officials also make over $100,000, but are not counted as part of the FSD
staff because they are subject to different position descriptions and budget line items.
16
   The salaries of the FSD administrative staff are based on pay bands. Each administrative position may have a number
of pay bands. For example, an AFSD could be in an “I” band earning a minimum salary of $54,100, while another
AFSD could be in a “K” pay band making a maximum of $122,300.

                                       Review of TSA Non-Screener Administrative Positions
                                                            Page 17
         pay band, number of personnel, and the average salary of all FSD staff
         positions are contained in Appendix E.

         AFSDs for Screening and Screening Managers both have job descriptions that
         are commensurate with their duties (see position descriptions in Appendix G).
         For example, an AFSD for Screening is responsible for a staff that consists of
         screeners and managers at large airports that have multiple checkpoints. Staff
         at the checkpoints screen passengers, clean screening equipment, and ensure
         passengers follow the laws, regulations, and policies relating to TSA’s
         aviation security program. An AFSD for Screening also interfaces with
         headquarters officials and the heads of other airport operations to ensure
         effective program management. A Screening Manager is responsible for the
         screening procedures at multiple checkpoints, which includes processing
         passengers, baggage, and cargo and screener performance. The Screener
         Manager also manages spoke airports, which are sometimes remotely located.


FSD Administrative Staff Regularly Perform Other Duties As
Assigned
         The Chairman alluded to “instances where FSDs hire non-screening
         administrative staff who have limited and in many cases poorly defined
         responsibilities.” In general, position descriptions for administrative and
         screener personnel are commensurate with the employees’ duties and
         responsibilities. However, TSA should consider revising some position
         descriptions to better reflect the actual duties and responsibilities of its
         administrative staff.

         The type of staff needed at airports continues to evolve. TSA is giving higher
         priority to hiring administrative positions such as Human Resources
         Specialists, Payroll Specialists, Financial Specialists, Administrative Officers,
         and Customer Service Specialists. On the other hand, positions that are too
         specialized or where there is not enough work, are now contingent upon need
         and funding. These include Support Managers, Metrics Specialists, Industrial
         Engineers, and Customer Service Specialists.

         The consensus we heard among FSDs was that the duties need to be
         completed regardless of who does it and how long it takes. As a result, on a
         more frequent basis FSDs are cross-training their staff by combining positions
         with duties that may overlap and requiring them to perform functions outside
         of their position descriptions. For example, FSDs are combining the

                    Review of TSA Non-Screener Administrative Positions
                                         Page 18
        Stakeholder Liaison and Customer Support & Quality Improvement positions
        because they do not believe separate positions are needed. An FSD stationed
        at one of the nation’s largest airports stated that he does not have a
        Stakeholder Liaison; rather the rest of his staff shares those duties. Another
        FSD stated that he has an employee who is technically an Industrial Engineer,
        but that employee’s duties more resemble those of a Program Analyst. An
        FSD at a Category II mentioned that she also functions as the airport’s
        Stakeholder Liaison and assists with legal issues.

        These examples reflect TSA’s growing pursuit of analysts with broader skills
        who can perform a multitude of tasks and give FSDs more flexibility with
        their resources.


Recommendations
        We recommend that the Assistant Secretary, TSA:

        Recommendation 1: Conduct a workforce analysis of FSD administrative
        staff and develop a staffing model to identify the number of employees
        actually needed at airports. This analysis should identify key mission areas
        and responsibilities; and take into consideration the time and nature of
        administrative work performed by screeners when assessing its workforce
        requirements.

        Recommendation 2: Review proposed adjustments to FSD staffing levels
        and ratios of administrative to screener personnel. In particular, proposed
        changes to Hawaii’s administrative staff caught our attention as warranting
        more review.

        Recommendation 3: Continue to study technologies or systems that will
        automate data entry functions at airports.

        Recommendation 4: Reclassify administrative positions using more
        inclusive position titles to incorporate more of the functions employees
        perform and facilitate the hiring of administrative personnel.




                  Review of TSA Non-Screener Administrative Positions
                                       Page 19
Management Comments and OIG Evaluation

        We evaluated TSA’s written comments and have made changes to the report
        where we deemed appropriate. Below is a summary of TSA’s written
        responses to the report’s recommendations and our analysis of the responses.

        Recommendation 1: Conduct a workforce analysis of FSD administrative
        staff and develop a staffing model to identify the number of employees
        actually needed at airports. This analysis should identify key mission areas
        and responsibilities; take into consideration the time and nature of
        administrative work performed by screeners when assessing its workforce
        requirements.

        TSA Response: TSA’s Office of Human Capital (OHC), in partnership with
        the Office of Security Operations (OSO), will conduct a comprehensive
        workforce review. The overarching goal for TSA’s workforce analysis will be
        to establish an overall position structure that will best serve the mission of
        TSA in accordance with official organizational and functional statements;
        optimize efficiency, productivity, and organizational effectiveness; and
        support the goals of DHS. OHC and OSO will review functions performed at
        a sampling of airports and determine the necessary structure to support
        mission accomplishment. OHC and OSO will seek to optimize the
        distribution of staff resources, and identify, prevent, and eliminate
        unnecessary organizational fragmentation. Furthermore, the review will assist
        in determining the number of positions needed, the skill and knowledge
        requirements of those positions, and the grouping of duties and
        responsibilities among positions. TSA will initiate the workforce analysis
        during the fourth quarter of fiscal year 2006 and expects to conclude it by the
        end of the second quarter 2007.

        OIG Evaluation: TSA’s plan to conduct a comprehensive workforce review
        of administrative staff is responsive to this recommendation. TSA should
        update the OIG on the status of this review in its 90-day Action Plan and upon
        its completion, provide the results to the OIG. Recommendation 1 is resolved
        – open.

        Recommendation 2: Review proposed adjustments to FSD staffing levels
        and ratios of administrative to screener personnel. In particular, proposed



                  Review of TSA Non-Screener Administrative Positions
                                       Page 20
changes to Hawaii’s administrative staff caught our attention as warranting
more review.

TSA Response: TSA completed a review of Federal Security Director (FSD)
staffing levels at all airports in May 2006. With respect to the current budget,
new business rules were developed based primarily on the ratio of FSD staff
to Transportation Security Officer (TSO) Full-Time Equivalents (FTE),
allocated Screening Managers, and Aviation Security Inspectors. Other
factors include the number of spokes assigned to a hub and the distance
between a hub and its supported spoke airports. FSD staff is now, in large
part, distributed according to TSO FTE workforce size, not airport category.
This improved approach allows for economies of scale: as authorized TSO
FTE changes, the ratio of FTE to staff is also adjusted. TSA is currently
implementing the plan and assessing its impact with a target completion of
September 30, 2006.

TSA asserted that Hawaii presents a unique situation with respect to staffing
requirements. Travel between Hawaii’s seven airports spread across four
islands, requires FSD staff to fly. Therefore, this prevents Hawaii’s locations
from being easily compared to other individual category X or hub and spoke
airports including locations such as Newark Liberty. TSA is taking these
challenges into consideration. The new hub and spoke model will bring the
Hawaii staffing allocations more in line with airports with similar challenges.

OIG Evaluation: TSA’s May 2006 review of FSD staffing, in which TSA
reviewed the proposed adjustments of the ratio of FSD administrative
positions to screeners, is responsive to our recommendation. The new FSD
staffing plan should provide specific information to help determine whether to
reduce, cap, or increase FSD administrative staff levels. In its 90-day Action
Plan, TSA should provide a copy of the new plan and impact assessment
showing changes in FSD staff levels at all airports.

FSD staff fly between the Hawaiian islands out of necessity, but that does not
render our comparisons invalid. The travel time needed to visit spoke airports
in Hawaii is comparable to the travel time between mainland hub and spoke
airports. For example, the travel time from Honolulu to Hilo is 50 minutes
and from Honolulu to Lihue requires just 20 minutes. We encourage TSA to
demonstrate in its Action Plan how Hawaii staffing allocations are consistent
with other airports. Recommendation 2 is resolved – open.




           Review of TSA Non-Screener Administrative Positions
                                Page 21
Recommendation 3: Continue to study technologies or systems that will
automate data entry functions at airports.

TSA Response: TSA’s Office of Human Capital received authorization to
proceed with the electronic Time and Attendance program (eTA) on June 19,
2006. The eTA program will enable TSOs to “badge” in and out, fully
automating the entry of timekeeping data, calculating time differentials, and
overtime activities. This program will enable those employees who are
currently performing data entry for timekeeping to return to their normal work
position. The program is now in the acquisition cycle. TSA expects to
implement the eTA program by September 2007. TSA continues to seek
other opportunities to improve efficiencies with automated data entry at
airports.

OIG Evaluation: TSA’s plan to automate time and attendance data entry
through the eTA program is responsive to this recommendation. In its Action
Plan, TSA should update the OIG on the status of the program and explain in
greater detail how the eTA program has affected the screener workforce.
Recommendation 3 is resolved – open.

Recommendation 4: Reclassify administrative positions using more
inclusive position titles to incorporate more of the functions employees
perform and facilitate the hiring of administrative personnel.

TSA Response: TSA stated that a natural outcome of is comprehensive
workforce analysis will be the development of positions to support actual
functions performed. The workforce analysis will result in the development of
a position scheme which clearly delineates assigned duties and responsibilities
within the framework established by official organizational and functional
statements, avoids conflict or overlap with other positions, and serves as an
effective tool for recruiting, training, advancement, and evaluation of a quality
work force.

OIG Evaluation: TSA needs to ensure that the reclassification of
administrative positions using more inclusive position titles occurs. The
recommendation can be completed simultaneously with the workforce
analysis, as TSA has suggested, but the two are independent of each other.
Compliance with this recommendation will clarify the duties of each
administrative position and provide TSA with insight regarding staffing
shortfalls. In its Action Plan, TSA should identify those positions it intends to
reclassify. Recommendation 4 is resolved – open.


           Review of TSA Non-Screener Administrative Positions
                                Page 22
         Appendix A
         Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
         In July 2005, Congressman John Mica, Chairman, House Aviation
         Subcommittee, requested that the OIG review TSA’s non-screener
         administrative staff levels and consider the need for a reduction or a cap on
         these positions. He stated that: a) all-Federal airport screening operations are
         top heavy in administrative positions, b) TSA staffing is redundant and
         duplicative at private screener pilot program (PP5) airports,
         c) Federal Security Directors hired non-screening administrative staff who
         have limited and in many instances poorly defined responsibilities, and
         d) many TSA supervisory screening positions have questionable job
         descriptions that pay over $100,000 annually.

         We examined TSA’s methodology behind its original staffing chart, and
         evaluated proposed staffing changes as part of the realignment plan. Our
         analysis of the airport staffing levels was primarily based on the FSD staff
         relative to the number of screeners they served. We were unable to determine
         how much of administrative support either in terms of hours or FTEs, was
         used by regulatory inspectors and law enforcement personnel present at
         airports from TSA’s data. We collected and analyzed data on TSA non-
         administrative staffing positions, position descriptions and salaries. We also
         examined the nature of work and amount of time screeners spent on
         administrative tasks. We also reviewed TSA’s letter of January 25, 2006, in
         response to Chairman Mica’s concerns.

         We interviewed officials from the Office of Aviation Security and the Chief
         Financial Office, including the Acting Chief Operating Officer; all three Area
         Directors; the Director, Infrastructure; and the Assistant Director, Materiel.
         We met with officials from the American Association of Airport Executives
         (AAAE). In response to our review, the AAAE surveyed Airport Directors on
         these issues and we reviewed those responses forwarded by the AAAE. In
         addition, we conducted teleconferences with six airport directors.

         We selected a judgmental sample of 25 airports across the country and
         conducted teleconferences with their FSDs. These airports included:

             •   Hartsfield Atlanta International Airport (ATL)
             •   Bangor International (BGR)
             •   Boise Air Terminal (BOI)


                    Review of TSA Non-Screener Administrative Positions
                                         Page 23
Appendix A
Purpose, Scope, and Methodology




    •   Yeager Airport (CRW)
    •   Charleston International Airport (CHS)
    •   Port Columbus International Airport (CMH)
    •   Denver International Airport (DEN)
    •   Detroit Metro Wayne County (DTW)
    •   Dallas Love Field (DAL)
    •   General Mitchell International Airport (MKE)
    •   Honolulu International Airport (HNL)
    •   Indianapolis International Airport (IND)
    •   Jacksonville International Airport (JAX)
    •   John F. Kennedy International Airport (JFK)
    •   Los Angeles International Airport (LAX)
    •   Manchester Airport (MHT)
    •   Miami International Airport (MIA)
    •   Newark International Airport (EWR)
    •   O’Hare International Airport (ORD)
    •   Orlando International Airport (MCO)
    •   Palm Beach International Airport (PBI)
    •   Portland International Airport (PDX)
    •   Rapid City Regional (RAP)
    •   Rochester-Monroe County (ROC)
    •   San Francisco International Airport (SFO).

In addition, we held face-to-face meetings with FSDs at:

    •   Ronald Reagan Washington National Airport (DCA)
    •   Baltimore-Washington International Airport (BWI)
    •   Dulles International Airport (IAD).

We completed our fieldwork in January 2006. Our review was conducted
under the authority of the Inspector General Act of 1978, as amended, and
according to the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency.




           Review of TSA Non-Screener Administrative Positions
                                Page 24
Appendix B
Management Response to Draft Report




           Review of TSA Non-Screener Administrative Positions
                                Page 25
Appendix B
Management Response to Draft Report




           Review of TSA Non-Screener Administrative Positions
                                Page 26
Appendix B
Management Response to Draft Report




           Review of TSA Non-Screener Administrative Positions
                                Page 27
Appendix B
Management Response to Draft Report




           Review of TSA Non-Screener Administrative Positions
                                Page 28
Appendix C
Chairman Mica’s July 6, 2005 Letter




            Review of TSA Non-Screener Administrative Positions
                                 Page 29
AppendixC
Chairman Mica’s July 6, 2005 Letter




            Review of TSA Non-Screener Administrative Positions
                                 Page 30
AppendixC
Chairman Mica’s July 6, 2005 Letter




            Review of TSA Non-Screener Administrative Positions
                                 Page 31
AppendixD
TSA’s Response to Chairman Mica’s Letter




           Review of TSA Non-Screener Administrative Positions
                                Page 32
Appendix D
TSA’s Response to Chairman Mica’s Letter




           Review of TSA Non-Screener Administrative Positions
                                Page 33
            Appendix G
            Pay Band, Number, and Average
            Salary of FSD Administrative Staff




Pay Band, Number, and Average Salary of FSD Administrative
Staff

                        Position                                 Pay Band     Total Average
                                                                              Staff  Salary
Federal Security Director                                        I/J/K/SES      142 $119,334
Deputy Federal Security Director                                 I/J/K/SES      116 92,265
AFSD-Operations and Screening                                       I/J/K       233 89,166
Administrative Officer and Specialist                                 I/J       131 77,149
Customer Service Quality Improvement/Support                          I/J        65 75,622
Manager
Scheduling Operations Officer                                      H/I          111   75,360
Stakeholder (Liaison and Manager)                                  H/I/J         99   72,483
Training (Coordinator, Instructor and Specialist)                 G/H/I         194   64,873
Specialist (Finance, Human Resources and Procurement)             G/H/I/J       305   62,570
Others                                                                           19   62,063
Customer Specialist and Management Analyst                         D/E/F         44   60,436
Executive Assistant                                                 F/G          49   49,924
Program (Analyst and Assistant)                                   D thru J      144   46,966
Secretary                                                          D/E/F         82   37,965
Administrative Assistant, Clerk and Secretary                       D/E          94   33,147




                        Review of TSA Non-Screener Administrative Positions
                                             Page 34
AppendixF
Map of the Western Area




                    Western Area
                     Re-Hub Proposal




           Review of TSA Non-Screener Administrative Positions
                                Page 35
             Appendix G
             Position Descriptions




Position Descriptions
             Federal Security Director

             Provides day-to-day direction for federal airport security staff and operations.
             The FSD will be the ranking TSA authority responsible for the leadership and
             coordination of TSA security activities. These responsibilities and
             accompanying authority include tactical planning, execution, and operating
             management for coordinated security services and other duties as prescribed
             by the Under Secretary of Border and Transportation Security. The FSD is
             responsible for activities such as: organizing and implementing the Federal
             Security Crisis Management Response Plan; implementation, performance
             and enhancement of security and screening standards for airport employees
             and passengers; oversight of passenger, baggage, and air cargo security
             screening; airport security risk assessments; security technology
             implementation and maintenance within established guidelines; crisis
             management; data and communications network protection and recovery as it
             impacts on federal security responsibilities; employee security awareness
             training; supervision of Federal law enforcement activities within the purview
             of the FSD and TSA; and coordination of applicable federal, state, and local
             emergency services and law enforcement.

             Deputy Federal Security Director

             Serves at a medium-sized airport with multiple checkpoints and is responsible
             for supporting the FSD by providing day-to day direction for airport security
             staff and operations. Supports the FSD in areas such as tactical planning,
             execution, and operating management for coordinated security services.
             Serves as principal advisor to the FSD on all matters concerning operational
             support. Prepares, plans, coordinates, and manages support operations that
             include customer service/stakeholder programs, training, and engineering
             services. Confers with the FSD and or project staff personnel to outline work
             plans, provide technical advice to resolve problems, review status reports and
             modify schedules to meet workload fluctuations. Responsibilities also
             include: organizing and implementing the Federal Security Crisis
             Management Response Plan; implementation, performance and enhancement
             of security and screening standards for airport employees and passengers;
             oversight of passenger, baggage and air cargo security screening; airport
             security risk assessments; security technology implementation and
             maintenance within established guidelines; crisis management; data and
             communications network protection and recovery as it impacts on federal


                         Review of TSA Non-Screener Administrative Positions
                                              Page 36
Appendix G
Pay Band, Number, and Average
Salary of FSD Administrative Staff




security responsibilities; employee security awareness training; supervision of
Federal law enforcement activities within the purview of the FSD and TSA,
and coordination of applicable federal, state, and local emergency services and
law enforcement.

Assistant Federal Security Director - Operations

Serves as the principal advisor to the FSD on all matters concerning the
administration and operational support of a large airport. Directs the work of
supervisors, program managers and other subordinate employees for multiple
administrative and operational functions. Prepares, plans, coordinates, and
manages support operations that include administration, financial/budget,
human resources, customer service/stakeholder, training, procurement and
engineering services. Confers with the FSD and/or project staff personnel to
outline work plans, provide technical advice, resolve problems, review status
reports and modify schedules to accomplish duties. Identifies and determines
type of actions required to meet time frames and budget/ funding limitations.
Sets up procedures to meet the FSD’s staffing requirements and provides
necessary resources to accomplish the projects. Manages or conducts
targeted recruitment and/or other external marketing sources to assist in
providing diverse applicant pools to the FSD. Advises/informs FSD on
unusual or complex managerial or personnel disciplinary issues. Provides
data/information and reports from a statistical and narrative database in all
support areas. Exercises discretion and sound judgment in dealing with
sensitive human resource matters or issues. Impact of work typically affects
TSA policies and objectives and regularly affects personnel inside and outside
the organization.

Assistant Federal Security Director- Screening

Is responsible for a staff of security screeners and managers at a large
Category X or I sized airport with multiple checkpoints that conduct
screening, manages operations, and administers laws, regulations and policy
pertaining to the agency’s aviation security program. The work accomplished
impacts all civil aviation security personnel at the specific airport. Exercises
final authority for the full range of managerial responsibilities over the staff.
Makes major recommendations concerning significant internal and external
program policy issues affecting the overall organization, such as scheduling,
full-time/part-time and gender hiring needs, screener FTE allocation,
selections, process control, writing performance criteria, and managing
personnel in a 24/7 environment. Interfaces with individuals from


            Review of TSA Non-Screener Administrative Positions
                                 Page 37
Appendix G
Pay Band, Number, and Average
Salary of FSD Administrative Staff




headquarters and other airport operations to assure effective program
management.

Scheduling Operations Officer

Assists with coordinating the day-to-day operational activities related to
screening functions at an assigned airport. Schedules all screener operations
activities. Responsible for the efficient implementation, performance, and
enhancement of security and screening standards for airports/airline
employees and passengers, their baggage, and all other personnel and goods
subject to screening that enter the sterile area. Creates daily personnel
schedules for all shifts and ensures sufficient coverage during operating hours.
Maintains personnel check-in/out sheets to ensure appropriate log ins.
Prepares, distributes, collects, and maintains all records, reports, files,
paperwork and logs for supervisors. Receives daily briefings from Screening
Managers regarding personnel staffing needs, sign-in/sign-out sheets, safety
hazards, maintenance needs, incident reports, etc. Performs quality assurance
audits as directed. Communicates information concerning personnel policy
and procedures, safety hazards and equipment to FSD. Performs semi-annual
screening security risk assessments and stays abreast of local airport
emergency plans (e.g. alarms, evacuations, etc.)

Stakeholder Liaison

Serves as a Stakeholder Liaison for the Transportation Security
Administration at a medium/small sized US airport. As such he/she serves as
liaison for the FSD with various stakeholders concern with aviation security
policy. Works closely with the leadership to develop, coordinate, implement
and maintain a program to communicate to stakeholders the TSA’s policies,
programs and directives.

Identifies and responds to stakeholder’s questions, programs and concerns
regarding security. Recommends changes as needed to improve
communications with stakeholders. As the principal TSA interface with
security stakeholders, incumbent works to identify and implement best
practices to enhance the efficiency and effectiveness of aviation security
policies.

Training Coordinator/Specialist

Serves as a liaison concerning training matters between FSD and the
Transportation Security Administration headquarters, including the Office of

            Review of TSA Non-Screener Administrative Positions
                                 Page 38
Appendix G
Pay Band, Number, and Average
Salary of FSD Administrative Staff




Workforce Performance and Training (WPT) and the headquarters Aviation
Program Office.

Plans, directs, schedules, evaluates and integrates training and professional
development products and services within the airport environment; promotes
the availability of these products and services to the workforce. Serves as the
primary resource to the FSD with regard to coordinating plans, programs,
standards and procedures governing airport-wide training, career
development, screener recertification, and screener performance improvement
programs/activities. Provides advice and guidance to the FSD pertinent to the
training needs and workforce performance improvement programs generated
in support of the airport functions. Conducts briefings for senior-level
management and staff on training and development issues/opportunities.
Ensures that training products respond to TSA goals and objectives.

Documents training activities/accomplishments in web-based learning
management system; ensures the currency of training database and materials.
Manages instructors, which may include identifying and overseeing TSA
Approved Instructors (TAI), coordinating with screening management to
identify individuals appropriate to provide screener on-the-job training, and
coordinating with contractors who conduct training. May act as TAI or Test
Administrator. Schedules new hire training. Provides feedback to WPT on
training solutions and may recommend modifications to existing training or
alternative training approaches.

Customer Service Manager

Serves as the primary airport representative for ongoing customer
improvement initiatives supporting the sustained delivery of quality
customer service. Works in conjunction with FSD staff to identify needs
and implement efficient screening process improvements. Serves as
primary contact for the management of all customer resolution activities,
acting as the ‘voice of the customer’. Facilitates interest-based solutions
with customers through cooperative problem solving and conflict
resolution skills. Develops and maintains customer feedback loops to
improve techniques for gathering data and information. Oversees
implementation of TSA signage program at station.

Creates and implements customer focused initiatives. Initiates customer
focused surveys to identify and report on programs addressing both strengths
and weaknesses in processes. Uses the Performance Management Information


            Review of TSA Non-Screener Administrative Positions
                                 Page 39
Appendix G
Pay Band, Number, and Average
Salary of FSD Administrative Staff




System and the Business Intelligence Tool to review critical data and develop
action plan recommendations. Partners with FSD staff in providing detailed
analysis and recommendations for improvement initiatives. Communicates
relevant information to local TSA community on service and improvement
initiatives.

Industrial Engineer/Metric Specialist

Serves as Program Analyst (Metrics) within the office of the Area Director.
Using broad discretion, the incumbent performs a variety of vital staff-level
management, direction, advisory and guidance functions on activities
associated with program and policy operations for the area. Serves as a
troubleshooter for sensitive problems and issues resulting from management
inquiries. Participates in the formulation and review of aviation management
policies and procedures.

Applies experience and advanced knowledge to plan and perform
administrative assignments for projects and programs. Has a broad
understanding of how administrative assignments contribute to organizational
activities. Typical specialized assignments may include: compiling, tracking,
and analyzing data; preparing correspondence; providing written or oral
explanation of organizational policies; and coordinating the implementation of
new office policies and systems. Efforts will include evaluating complex and
varied information in order to develop and evaluate proposed solutions and
recommendations for an elected course of actions.

Has thorough knowledge of requirements, techniques, technologies, methods,
and systems sufficient to formulate plans, and to interpret regulations,
policies, and directives pertaining to the National Emergency Preparedness
Plan in crisis management.

Administrative Officer

Serves as the administrative manager and advisor to airport management at
larger sized airports. The Administrative Officer plans, manages, leads and
evaluates a comprehensive administrative support program that includes
financial management, human resources, and procurement. Participates
and/or directs fiscal analysis and research in support of the preparation and
administration of capital and operating budgets. Keeps senior staff informed
of any potential problems in administrative and personnel management areas
regarding their activities. Reviews incoming new data, written material,


            Review of TSA Non-Screener Administrative Positions
                                 Page 40
Appendix G
Pay Band, Number, and Average
Salary of FSD Administrative Staff




policy recommendations, and other information and analyzes content to revise
or refine the recommendations or text. Drafts and reviews all policy
correspondence to assure accurate budgetary, personnel, and administrative
impact. Participates in the development and implementation of new or
modified guidelines, work processes, and operations in order to maintain
and/or improve the effectiveness, efficiency, or timeliness of processes and
information dissemination. Participates in the development of both short and
long-term strategic planning for the organization. Supervises a staff of
administrative, clerical, and technical personnel. Establishes, leads, and
coordinates teams to accomplish project objectives, which includes goal
setting, monitoring performance and taking corrective actions. Supervises or
independently performs special projects. Non-routine work is reviewed by
higher-level manager.

Human Resources Specialist

Serves as a human resources (HR) specialist for a medium sized airport and is
responsible for coordinating and overseeing the daily HR activities and
programs within the airport and associated spoke airports.

Provides the FSD management and Administrative Officer with operational
support and management advisory services from knowledge and practical
experience gained in a variety of HR disciplines, such as: classification,
compensation and pay, employee benefits, employee relations, position
management, personnel processing, recruitment and staffing. Serves as the
FSD’s resident HR consultant, provides technical interpretations and guidance
on HR matters based on directions from Headquarters’ Office of Human
Resources or designated field representatives. Provides management advisory
services to the FSD staff as appropriate and provides first line response to
airport employees’ inquiries, as well as those assigned to spoke airports, as
appropriate. Responds to address a range of HR inquiries involving routine to
complex actions, and contacts senior agency HR contacts for assistance in
addressing difficult and unusual issues. Ensures the accuracy and timely
submission of personnel requests and other HR actions, and implements and
provides technical guidance for HR-related programs and activities in efficient
manner. Maintains familiarity with and applies a good working knowledge of
HR policies and programs.

Supports the use of an Integrated Conflict Management System (ICMS) as
part of TSA’s vision to create a Model Workplace and supports Model



            Review of TSA Non-Screener Administrative Positions
                                 Page 41
Appendix G
Pay Band, Number, and Average
Salary of FSD Administrative Staff




Workplace Initiative as directed by FSD. Responsible for the creation,
delivery and monitoring of FSD assigned projects.

Works directly with local personnel and TSA Headquarters to ensure the
success of national customer service partnerships and educational programs.
Works locally to ensure security procedures and programs are consistently and
effectively communicated to passengers. Builds partnerships and educates
individuals, groups and associations impacted by TSA policies, procedures
and programs emphasizing summer and holiday periods. Available to assist
with local media requests as required in coordination with TSA Public Affairs.

Financial Specialist

Performs a wide range of budget analysis assignments. He/She will be
responsible for the following: performing a wide variety of analytical duties
associated with the formulation, review, justification, presentation and
execution of the budget to include: reviewing, analyzing, and interpreting
financial and program performance data, existing and proposed legislation,
appropriations language and other statutory requirements, and Executive
Orders; providing expert advice and recommendations for budgetary and
program actions and advising management and junior specialist on most
advantageous course of action; and monitoring the execution of the airport’s
budget through the review of financial documents, examination of accounting
records and information provided by managers and TSA HQ Finance Office.
Other duties may include: 1) reviewing legislation, rules, regulations and
Departmental guidelines for impact on the airport’s financial management
activities; and 2) providing accounting support to plan and organize work
associated with financial management and fiscal program matters.

Executive Secretary

Serves as the Executive Assistant to the Director at large sized airports.
Works independently with a high degree of tact and diplomacy to carry out
special assignments requiring comprehensive knowledge of TSA’s mission.
Assignments are typically project based and of a sensitive and confidential
nature. Assignments may require coordination with other airport
administrative offices, TSA offices, and/or other federal agencies. Performs
research and conducts analysis on a wide range of subjects. Prepares reports,
summaries, and/or presentations incorporating the findings and conclusions.
Analyzes internal office workflow and establishes procedures to improve
effectiveness and efficiency of operations. Reviews all correspondence for


            Review of TSA Non-Screener Administrative Positions
                                 Page 42
Appendix G
Pay Band, Number, and Average
Salary of FSD Administrative Staff




FSD’s signature to ensure compliance with TSA policies. Work is frequently
reviewed by higher level manager.


Secretary (Office Automation)

Serves as secretary in a large-size airport environment for TSA. The
incumbent performs a variety of secretarial and administrative functions to
implement the office’s administrative programs, policies and procedures.
Provides administrative support in the areas of human resources, finance and
procurement. Duties and responsibilities may also include: ensures the
manager is provided with the background and the most current information on
particular subjects by researching files and other documents for pertinent data
before referring visitors; maintains the manager’s appointment calendar;
handles incoming correspondence, information, and documents which flow
through the office, ensures timely handling of sensitive material; reads and
reviews all outgoing correspondence, reports, and other material; makes travel
arrangements; develops and maintains an effective filing system; coordinates
and schedules meetings and conferences; receives, screens and directs
incoming phone calls, visitors, and mail; maintains time and attendance
reports; and responds to general inquiries.

Screening Manager

Is responsible for screening procedures, processes (passenger, baggage, cargo,
et al), and performance. Uses good judgment while making decisions in the
field. Manages multiple locations simultaneously, including off-site locations
(i.e., spoke airports). Manages screening checkpoints that are central to TSA
objectives that serve to protect the traveling public by preventing any deadly
or dangerous objects from being transported onto an aircraft. Recognizes and
recommends correction of improper use or application of the equipment,
provides guidance to subordinates, and answers routine questions presented by
subordinates. Manages and supports the collection of various performance
metrics in an effort to identify areas in need of process improvement and
systemic or individual weaknesses, vulnerabilities, or inefficiencies in the
screening process. Coordinates national and local crisis management and
incident response protocols. Recognizes and understands the customer service
needs of the traveling public and balances these needs with safety and security
in mind. Works cooperatively with airport stakeholders in furtherance of the
TSA mission. Monitors individual performance and provides frequent
communication in order to promote screener development.


            Review of TSA Non-Screener Administrative Positions
                                 Page 43
Appendix H
Major Contributors to This Report




Office of Inspections and Special Reviews

William McCarron, Chief Inspector, Department of Homeland Security,
Office of Inspections and Special Reviews

M. Faizul Islam, Ph.D. Senior Inspector, Department of Homeland Security,
Office of Inspections and Special Reviews

Melissa Keaster, Inspector, Department of Homeland Security, Office of
Inspections and Special Reviews




            Review of TSA Non-Screener Administrative Positions
                                 Page 44
Appendix I
Report Distribution




Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
Executive Secretary
Assistant Secretary for Legislative and Intergovernmental Affairs
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
General Counsel
Chief Security Officer
Chief Privacy Officer
DHS OIG Liaison

Transportation Security Administration

Assistant Secretary, TSA
TSA Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS Program Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




            Review of TSA Non-Screener Administrative Positions
                                 Page 45
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
